4i

No. 20-6333

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
IMMANUEL F. SANCHEZ,
Petitioner,
vs.
STATE OF CALIFORNIA, et al.,
Respondents.
PROOF OF SERVICE
I, Immanuel F. Sanchez, do state or declare that on this date, March
13, 2020, as required by Supreme Court Rule 29, I have served the enclosed
PETITION FOR REHEARING on each party to the above proceeding or that
party's counsel, and each other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and first-class postage prepaid.
The names and addresses of those served are as follows:
Elizabeth Prelogar, U.S. Solicitor General
UNITED STATES OF AMERICA
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., NW, Room 5616
Washington, DC 20530-0001

Xavier Becerra, Attorney General
STATE OF CALIFORNIA
DEPARTMENT OF JUSTICE
1300 I Street
Sacramento, CA 95814
Mary Wickham, County Counsel
COUNTY OF LOS ANGELES
Kenneth Hahn Hall of Administration
500 W. Temple St., No. 648
Los Angeles, CA 90012
Soleyman Cohen Sedgh
WEST COAST DENTAL SERVICES, INC.
12121 Wilshire Blvd., 1111
Los Angeles, CA 90025
Stacy Rummel Bratcher, General Counsel
HERMAN OSTROW SCHOOL OF DENTISTRY OF USC
3551 Trousdale Pkwy, ADM 352
Los Angeles, CA 90089
WILSHIRE CENTER DENTAL GROUP
3932 Wilshire Blvd., Suite 100
Los Angeles, CA 90010
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 1st day of February, 2021, at Los Angeles, California.

IMMANUEL F. SANCHEZ

